                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS        '




                                              CLOSEOUT MEMORANDUM

     Case Number:                                                                            Page 1 of 1
                         m o o 0 6

          The complainant' alleges that a Ph.D. thesis of the subject2contains essentially a verbatim
          transcription of the complainant's presentation given in 1992 at an International Conference, and
          is therefore plagiarism and fraud. The Ph.D. thesis of the subject was obtained, and the 1992
          conference proceedings were obtained.

          The 1992 conference presentation of the complainant describes a stress equation that is the focus
          of the alleged plagiarism. An equation of similar general form and of the same description
          appears in the subject's thesis. The text surrounding the equation in the subject's thesis is not
          similar to the text in the 1992 conference presentation of the complainant. The 1992 conference
          presentation ends with the statement that a more detailed account of this work will be
          forthcoming. The development of the mathematical expressions alleged to be plagiarized in the
          subject's thesis included several references to published papers of the complainant, and
          additionally, this section of the subject's thesis also contained references to published journal
          papers that identify themselves as more detailed follow-ups to the original 1992 conference
          presentation by the complainant. These two papers include an authol.? that also appears as one of
          the authors of the 1992 conference presentation. Both of these papers include reference to the
          1992 conference presentation, and as journal publications are more widely available to readers
          than the 1992 conference presentation proceedings, these publications would reasonably be more
          appropriate references for the subject's thesis. The anteriority of the 1992 conference
          presentation is well documented in these publications.


Il        There is no substance to the allegation of plagiarism or fraud.

          Accordingly, this case is closed.




          ' Redacted
          2
              Redacted
              Redacted
